UNITED STATES DEPARTMENT OF AGRICULTURE

        OFFICE OF INSPECTOR GENERAL



STATEMENT OF THE HONORABLE PHYLLIS K. FONG

               INSPECTOR GENERAL


                     Before the

  Subcommittee on Agriculture, Rural Development,
 Food and Drug Administration, and Related Agencies

           Committee on Appropriations

            U.S. House of Representatives

                   March 2, 2011
Good morning, Chairman Kingston, Ranking Member Farr, and Members of the Subcommittee.
Thank you for the opportunity to testify about the Office of Inspector General’s (OIG) Fiscal Year
(FY) 2012 Budget Request, and to provide information about our recent audit and investigative work.
My testimony today will summarize a number of the most important oversight projects and
investigations we performed in FYs 2010 and 2011 to date.

In FY 2010, our audit and investigative work obtained potential monetary results totaling nearly
$184 million.1 This includes 65 audit reports we issued to strengthen Department of Agriculture
(USDA) programs and operations, which produced over $35 million in potential results when program
officials agreed with our recommendations. In FY 2010, OIG investigations led to 459 convictions
with potential results totaling almost $149 million.

I will begin my testimony with an overview of our work to assess and improve the Department’s
programs and operations under the American Recovery and Reinvestment Act of 2009 (Recovery Act).
Next, I will cover our most significant recent audit and investigative activities under our major strategic
goals. Then I will conclude with a summary of the President’s FY 2012 Budget Request for OIG.

OIG Oversight of USDA’s Recovery Act Work

As part of the Recovery Act, USDA received $28 billion in additional funding for areas including rural
development, farm loans, and nutrition assistance.2 With the support of this Subcommittee, the
Recovery Act also provided OIG with $22.5 million over 5 years to oversee programs funded by the
Act and administered by USDA.

In response, OIG initiated a number of short- and long-term actions to provide timely and effective
oversight of the Department’s expenditure of Recovery Act funds. As of February 25, 2011, we have
issued 27 audit and 11 investigative Recovery Act reports. Since providing timely information is a
priority, we are also issuing short-turnaround reports, known as Fast Reports, so USDA program
managers can take corrective action as soon as we identify problems. As of February 25, 2011, we
have also issued 48 Fast Reports, which we will incorporate into formal audit reports once we complete
our work.


1
  Audit monetary impacts derive from funds put to better use and questioned/unsupported costs as established by Congress in the Inspector
General Act of 1978. Investigation monetary impacts come from recoveries, court-ordered fines, restitutions, administrative penalties, etc.
2
  This $28 billion includes funds paid directly to recipients for such things as nutrition assistance and funds used to finance loan-making. For
example, the Recovery Act authorized $133 million to finance over $10 billion in single-family housing guaranteed loans.



                                                                         1
Our audit division is approaching its review of Recovery Act-funded programs in three phases. In the
first phase, which we have nearly completed, we reviewed USDA agencies’ documented internal
control procedures relating to Recovery Act programs. In the second phase, which is in process, we are
evaluating program delivery, reviewing participant eligibility, and ensuring that Recovery Act funds are
being used for their intended purposes. To accomplish this, we are using statistical sampling where
possible and when cost effective. In the third phase, which will start in FY 2012, we will evaluate
program performance measures and the reporting of accomplishments and results.

Our investigation division is working to ensure the integrity of Recovery Act programs by taking up
potential cases of fraud, pursuing prosecution where warranted, and investigating whistleblower
allegations. As of February 25, 2011, OIG investigations staff have received 27 referrals relating to
USDA Recovery Act contract awards and 49 hotline complaints.

Examples of our findings to date involving Recovery Act-funded programs include:

Eligibility Determinations for Single Family Housing (SFH) Guaranteed Loans

The Recovery Act included $133 million to finance over $10 billion in SFH loan guarantees in rural
areas. Our statistical sample of 100 loans identified 28 loans where lenders had not fully complied with
Federal regulations or Recovery Act directives in determining borrower eligibility.3 We found
borrowers who were ineligible for a variety of reasons such as having annual incomes that exceeded
program limits or being able to secure credit without a Government loan guarantee. By guaranteeing
loans for ineligible borrowers, other eligible borrowers may not have received guarantees that could
have better achieved the goals of the Recovery Act. Based on the interim results of our statistical
analysis, we estimate that 27,206 loans were ineligible for the program (over 33 percent of the
portfolio)—with a projected total value of $4 billion.4

Controls Over Rural Development’s Single-Family Housing Direct Loan Program

We also assessed the oversight and control Rural Development maintained over almost $1.6 billion in
Recovery Act-funded loans to very low-income borrowers through its single-family housing direct loan
program.5 We found that the Rural Housing Service (RHS), which administers the program, did not

3
  04703-0002-Ch(1), Rural Development Guaranteed Single-Family Housing Loans Made by Lenders to Ineligible Borrowers, Dec. 2010.
4
  We chose a sample size of 100 because we expected a moderate error rate and wanted the ability to report findings with a +/-10 percent
precision (confidence interval) at a 95 percent confidence level.
5
  The Rural Development Recovery Act work summarized here and in the next paragraph can be found in: 04703-2-KC, Single-Family Housing
Direct Loans Recovery Act Controls — Phase II, Sep. 2010.

                                                                    2
ensure that calculations of borrower eligibility were current before closing loans. This increased the
risk of making loans to ineligible borrowers if their circumstances changed. RHS reviewers also did
not document the scope and timing of their second-party reviews. This reduced the effectiveness of the
quality control process. We recommended that RHS ensure that supporting documents are updated
before closing loans and that the scope and timing of reviews are specified.

We also found that comprehensive State office reviews of loan-making and loan-servicing were not
being analyzed by RHS to identify nationwide trends in control weaknesses, or to track the
effectiveness of corrective actions. We recommended that the reviews be aggregated into national,
multi-year analyses, and that RHS train State staff to use the results to administer the program.
RHS has initiated corrective actions in response to our audit. Currently, we are conducting a related
audit to determine if Rural Development’s staff is complying with internal control procedures designed
to ensure that Recovery Act eligibility guidelines, such as income limitations, are being met.

States’ Supplemental Nutrition Assistance Program (SNAP) Fraud Detection

USDA’s Food and Nutrition Service (FNS) administers SNAP through State agencies, which are
primarily responsible for monitoring recipients’ compliance with SNAP requirements along with
investigating cases of alleged intentional program violation.6 We evaluated FNS’ State-level controls
to mitigate SNAP fraud, an area related to FNS’ increased Recovery Act funding.7 We determined that
FNS performed reviews to evaluate how States manage SNAP, but the agency’s reviews did not target
State fraud detection units. Although FNS indicated that such reviews were unnecessary because State
annual activity reports were adequate to oversee State fraud detection, we determined that these reports
contained unreliable and unverified data. We also found that while FNS and State agency officials
relied on hotline complaints and outside referrals to identify SNAP fraud, they did not make use of
reports from electronic benefit processors that track participant and retailer activity to show potential
fraud and misuse. FNS generally agreed with our findings and recommendations for those States we
reviewed, but disagreed that they applied nationally. However, the agency did agree to review the
electronic benefit reports and to encourage States to use them to identify SNAP fraud.




6
 SNAP is still known as the “food stamp program” to many in the public, although it was officially renamed in 2008.
7
 The SNAP Recovery Act work summarized here can be found in: 27703-2-Hy(1), State Fraud Detection Efforts for the Supplemental Nutrition
Assistance Program, Jul. 2010; and 27703-2-Hy(2), State Fraud Detection Efforts for the Supplemental Nutrition Assistance Program – Use of
EBT Management Reports, Sep. 2010.

                                                                    3
Goal 1: Strengthen USDA’s Safety and Security Measures for Public Health

One of OIG’s most important goals is strengthening USDA’s ability to protect public health and
provide wholesome food for consumers. To achieve this objective, our audit and investigative work in
FYs 2010 and 2011 to date has focused on helping to improve the programs that safeguard our food.

For example, we recently completed an audit that assessed how the Food Safety Inspection Service
(FSIS) samples beef trim for E. coli, which can contaminate products such as ground beef.8 Currently,
FSIS’ inspectors take 60 samples from large lots of beef trim to test. We found, however, that this
procedure does not yield a statistical precision that is reasonable for food safety. Although 60 samples
may be adequate to detect widespread contamination, more are needed when E. coli is less prevalent.
FSIS’ current sampling methodology results in detection of E. coli less than half the time when it is
present in 1 percent of a beef trim lot. Accordingly, we recommended that the agency place its testing
process on sounder statistical ground by redesigning its sampling methodology to account for varying
levels of contamination. FSIS generally agreed with our findings and recommendations. In related
audit work, we have initiated a review of the agency’s E. coli testing protocols to ensure that beef trim
is effectively collected and analyzed. Together, our beef trim sampling and testing audits should help
bolster public confidence that FSIS’ tests are accurately identifying E. coli and ultimately preventing
contaminated meat from being distributed and consumed.

In the wake of the multi-State egg recall in 2010, we have also initiated an audit to assess USDA’s
system for detecting Salmonella in eggs. Our objectives are to evaluate USDA’s controls over in-shell
eggs to detect Salmonella and other contaminants, and to evaluate the effectiveness of USDA’s
coordination with FDA to ensure that eggs are wholesome.

Since knowing where food comes from and what it contains is critical to ensuring its safety, our
investigations have addressed cases where companies resorted to a variety of schemes to mislead the
public and the Government about the origin of marketed food. For example, we determined that one
California company falsely claimed its products—chili peppers—were grown in the United States in
order to obtain Federal clean health certificates from USDA. In fact, the peppers were imported from
India and China, which should have made them subject to more stringent USDA inspections to ensure




8
 The particular strain of E. coli—i.e., Escherichia coli—that FSIS tests for is O157:H7, which causes about 70,000 illnesses a year, with
52 fatalities in 2009. (24601-9-KC, Food Safety and Inspection Service N60 Testing Protocol for E. Coli, Phase I, Feb. 2011.)

                                                                        4
they did not carry foreign pests or diseases that could harm native species. In July 2010, a court fined
the company $50,000 and ordered 3 years’ probation for making false statements.

USDA also conducts research into genetically engineered animals and insects for a wide variety of
purposes, such as increased productivity. From 2002 to 2009, USDA funded 63 research projects and
grants, totaling over $22 million, which involved genetically engineered animals and insects. Our
ongoing audit in this area is assessing whether USDA’s regulatory framework provides the Department
sufficient authority to control the research under its purview. We are also evaluating USDA’s controls
for preventing the inadvertent release of genetically engineered animals and insects.

Goal 2: Strengthening Program Integrity and Improving Benefit Delivery

OIG’s work in this area is intended to save taxpayers’ money by ensuring that USDA programs deliver
the correct benefits in the right amounts to eligible participants. Our efforts in achieving this objective
range from advocating that USDA take vigorous enforcement action against those who abuse its
programs to evaluating how effectively agencies are reducing improper payments. Our investigations
also pursue cases against those who defraud the Department’s programs.

For example, in our audit of USDA’s suspension and debarment program, we determined that the
Department should better protect its programs by debarring those individuals and entities that abuse
them.9 Although the Department has authority to exclude those who commit crimes against its
programs from doing business with the Government, we found that convicted program violators were
rarely suspended or debarred. Between FYs 2004 and 2007, only 38 of 1,073 individuals convicted of
crimes against USDA programs were debarred—less than 4 percent. In principle, USDA officials
agree that suspension and debarment should be considered for convicted program abusers.

In practice, however, USDA had not implemented suspension and debarment in programs comprising
$98 billion of the Department’s $124 billion budget in FY 2007. USDA has historically excluded most
of its programs from suspension and debarment requirements. Agencies maintain that these exclusions
are in the public’s best interest and are consistent with statutes and other guidelines balancing access to
basic assistance, such as food, and enforcement against violators.10 However, agencies have not
provided statutory language or program rationales that, in our analysis, justify all of their exclusions.
We concluded that the public’s interest is best served by ensuring the integrity of funds and programs,

9
    50601-14-AT, Effectiveness and Enforcement of Suspension and Debarment Regulations in the U.S. Department of Agriculture, Aug. 2010.
10
     Title 7 CFR 3017.

                                                                      5
and by deterring program abuse. Further, since debarred individuals or entities are prohibited from
participating in Federal programs outside USDA, vigorous and appropriate use of suspension and
debarment provides for program integrity Governmentwide. Accordingly, we continue to work with
USDA and its agencies to reach agreement on the corrective actions needed to employ suspension and
debarment more effectively.

Our ongoing assessment of a recently implemented program, the Biomass Crop Assistance Program
(BCAP), concluded that it suffered from hasty implementation that did not include management
controls adequate to prevent abuses particular to the program.11 The 2008 Farm Bill authorized BCAP,
administered by the Farm Service Agency (FSA), to support renewable crops that could be used to
produce energy. Despite spending over $243 million to implement the handling aspects of the
program, such as collecting and transporting biomass, FSA did not institute a suitable system to provide
oversight and ensure program integrity.

We found wide-ranging problems with BCAP, including inequitable treatment of program participants
and improper payments. These issues occurred largely because FSA, in an effort to implement the
program quickly, did not develop tools specific to the program’s needs, such as specialized guidance.
Instead, FSA attempted to use guidance and oversight mechanisms designed for other programs, which
left BCAP vulnerable. For example, we found three cases where biomass suppliers and conversion
facilities circumvented poorly written agreements to obtain payments to which they were not entitled.
FSA has taken corrective action in response to our recommendations to develop program-specific
guidance and to specify prohibited practices in its BCAP agreements.

OIG is also working to help USDA respond efficiently to future disasters by reviewing the adequacy of
RMA’s management controls over indemnity payments made to citrus growers in the wake of
Hurricane Wilma. We have focused our work on how insurance providers processed the growers’
claims and calculated the indemnity payments. Our work with the agency should offer an opportunity
to strengthen how private insurance providers work with USDA in ensuring accurate indemnity
payments.




11
  03601-28-KC(1), Recommendations for Improving Basic CHST Program Administration, Biomass Crop Assistance Program Controls over
Collection, Harvest, Storage, and Transportation Matching Payments Program, Dec. 2010; and 03601-28-KC(2), Recommendations for
Preventing or Detecting Schemes or Devices, Biomass Crop Assistance Program Controls over Collection, Harvest, Storage, and Transportation
Matching Payments Program, Feb. 2011.

                                                                    6
I would also like to highlight for the Subcommittee several noteworthy OIG investigations involving
USDA benefit programs that achieved significant sentencing and restitution orders in FY 2010.

For example, OIG’s investigations into fraudulent activities involving RMA and FSA are some of our
most complex investigations because they often involve large monetary amounts and voluminous
documentation. In FY 2010, for FSA and RMA combined, we opened 76 cases and issued
49 investigative reports, which led to 35 convictions and over $45 million in monetary results.

In a particularly complex FSA case, we determined that a woman who owned a grain trucking and
marketing company in Missouri defrauded over 180 farmers out of at least $27 million. Between
2002 and 2009, she marketed and sold grain for farmers above market prices. As a result, she
quickly became one of the largest grain dealers in her State. However, we uncovered evidence to
prove that she was operating what is known as a “Ponzi Scheme”—essentially, she was using the
money from later sales to cover her previous above market prices. Eventually, she ran out of money
and left her later customers unpaid. Due to our investigation, she pled guilty to fraud and
transporting stolen property across State lines among other crimes. In February 2010, she was
sentenced to serve 108 months in Federal prison followed by 36 months’ supervised release, and
ordered to pay $27.4 million in restitution.

Unfortunately, there are also individuals who seek to defraud USDA programs designed to provide
basic nutrition assistance to those most in need, such as the Women, Infants, and Children program
(WIC) and the Child and Adult Care Food Program (CACFP), which are both administered by FNS. In
FY 2010, we opened 26 investigations in these areas and issued 9 investigative reports. This work led
to 28 convictions and almost $3 million in monetary results.

Since these programs work by reimbursing individuals or entities who provide benefits, one common
abuse involves submitting inflated claims. For example, one investigation disclosed that an Oklahoma
CACFP day care sponsor systematically claimed reimbursement for more meals than were served.
The court ordered $1.6 million in restitution and sentenced the sponsor to 41 months’ incarceration.

OIG investigations of criminal activity into another food program, FNS’ SNAP, resulted in
212 convictions and nearly $36 million in monetary results in FY 2010.

SNAP is USDA’s largest program, both in terms of the dollars spent and the number of participants.
In FY 2010, recipients redeemed close to $65 billion in benefits. The latest available data show that in

                                                   7
October 2010 more than 43 million people received almost $5.8 billion in SNAP benefits. SNAP is
also an important part of the food safety net for Americans, especially during times of economic
hardship. During the recent recession, SNAP participation increased by about 20,000 persons daily—
the program helped feed one in eight Americans and one in four children.

Given the considerable participation and funds involved, OIG devoted about 40 percent of its
investigative resources in FY 2010 to SNAP-related criminal investigations—this is our largest
allocation of investigative resources. Our main focus is on fraud committed by retailers, primarily
because FNS directly reimburses retailers while States are responsible for ensuring that recipients are
eligible. With few exceptions, our investigations yield tangible and direct benefits to the Government,
including criminal prosecution, significant fines and penalties, restitution, and asset forfeiture.

The most prevalent crime against SNAP is benefits trafficking, which involves a recipient exchanging
benefits for less than face value with someone who then claims reimbursement for the full amount.
The money involved in this type of SNAP fraud can be significant. For example, our analysis of two
Florida stores’ SNAP transactions identified approximately $6.2 million in trafficking by their owners
and other co-conspirators. Between March and May 2010, four defendants pled guilty to wire fraud
and SNAP fraud, and were sentenced to prison terms ranging from 8 to 48 months along with
restitution orders ranging from about $350,000 to $2.2 million.

In providing SNAP oversight, OIG audit staff also conducts reviews designed to improve FNS’ overall
management controls for this program and others. Currently, we are auditing FNS’ compliance with
reporting requirements related to reducing improper payments for SNAP and the National School
Lunch Program (NSLP). According to the Department, improper payments for these programs in FY
2009 cost taxpayers nearly $2.2 billion for SNAP and $1.5 billion for NSLP.12 Our objective is to
assess NSLP’s and SNAP’s level of risk for improper payments, determine the extent of oversight
needed, and provide recommendations, as warranted, to improve how FNS identifies and reports
improper payments, and the agency’s plan to reduce them.




12
     USDA’s FY 2010 Performance and Accountability Report.

                                                             8
Goal 3: OIG Work in Support of Management Improvement Initiatives

OIG continuously monitors risks to USDA programs in order to help the Department address
programmatic concerns, and to improve overall Department management. As part of this effort,
OIG investigates potential criminal activity and allegations of employee misconduct. In FY 2010,
our investigations included the following cases involving USDA employees and entities working with
the Department.

   ·   Our investigations uncovered a scheme by a Nebraska FSA employee to embezzle funds.
       The employee entered false repayment rates and backdated repayment dates when servicing
       FSA loans made to her and her husband. In total, she defrauded the agency of more than
       $44,000, which she agreed to repay as part of a plea agreement. In June 2010, she was
       sentenced to 8 months of house arrest and 36 months of probation; FSA no longer employs her.

   ·   Working with other Federal investigators, OIG determined that a Massachusetts corporation
       collected millions of dollars from the Government for services it never provided.
       The corporation offered training on computer software and other information technology.
       Using a pre-paid voucher system, agencies paid up front for training that the company never
       delivered. We found that several USDA agencies were victimized by this scheme.
       In April 2010, the corporation agreed in settlement to return a total of $4.5 million.

   ·   In response to requests, including those from a former Secretary of Agriculture and a
       U.S. Senator, OIG reviewed allegations against the United Soybean Board and the
       U.S. Soybean Export Council. In July 2010, we concluded that there was insufficient evidence
       to support the allegations, but recommended that the soybean board increase its oversight of the
       export council.

Along with our other work, OIG is required to annually audit USDA and some of its agencies’ financial
statements as well as USDA’s information technology system security.

   ·   Pursuant to the Chief Financial Officers Act of 1990 and guidance from the Office of
       Management and Budget, Federal OIGs are responsible for annual audits of Departmental and
       agency financial statements in order to provide reasonable assurance that the financial
       statements are free of material misstatements. USDA’s FY 2009 and 2010 consolidated


                                                   9
           financial statements received an unqualified opinion,13 as did the FY 2009 and 2010 financial
           statements for five of six other USDA entities that are required to undergo a financial statement
           audit.14 The sixth lacked sufficient support for transactions and account balances, and so
           received a disclaimer on its financial statements because an audit opinion could not be given.15

     ·     As required by the Federal Information Security Management Act, OIG examined the security
           of USDA’s information technology in FY 2010.16 We found that improvements have been
           made but weaknesses remain. For example, the Department has not established a program to
           secure remote access to USDA information systems, or to oversee systems operated on
           USDA’s behalf by contractors and other entities. In order to mitigate continuing material
           weaknesses, we recommended that the Department rethink its policy of attempting to achieve
           numerous goals at the same time in short timeframes. Instead, USDA and its agencies should
           accomplish one or two critical objectives before moving on to the next set of priorities.

The Secretary of Agriculture also requested that we examine the Department’s civil rights process.
Accordingly, we recently initiated an audit of USDA’s progress in addressing civil rights complaints
related to alleged discrimination in its programs. Specifically, we will assess USDA’s decisionmaking
process for settling with complainants who allege discrimination. We will also followup on our prior
recommendations to improve USDA’s civil rights process.

Goal 4: Improving USDA’s Stewardship of Natural Resources

USDA provides leadership to help America’s private landowners and managers conserve soil, water,
and other natural resources. Our goal in auditing these activities is to increase the efficiency and
effectiveness of USDA stewardship over natural resources.

For example, we are auditing Natural Resources Conservation Service (NRCS) controls over the
Farm and Ranch Lands Protection Program in Michigan. This program helps keep land in agricultural
use by sharing easement purchase costs with cooperating entities, such as nonprofit organizations, to
acquire easements that prohibit developing the land for other purposes. Since NRCS can fund up to
13
   50401-70-FM, Department of Agriculture’s Consolidated Financial Statements for Fiscal Years 2010 and 2009, Nov. 2010.
14
   We issued the following financial statement audits in November 2010: 85401-18-FM, Rural Development’s Financial Statements for Fiscal
Years 2010 and 2009; 06401-25-FM, Commodity Credit Corporation’s Financial Statements for Fiscal Years 2010 and 2009; 08401-11-FM,
Forest Service’s Financial Statements for Fiscal Years 2010 and 2009; 27401-35-Hy, Food and Nutrition Service’s Financial Statements for
Fiscal Years 2010 and 2009; and 05401-19-FM, Federal Crop Insurance Corporation/Risk Management Agency’s Financial Statements for
Fiscal Years 2010 and 2009 (RMA operates and manages the Corporation, so they are included as a single entity for financial statement audits).
15
   10401-4-FM, Natural Resources Conservation Service’s Financial Statements for Fiscal Year 2010, Nov. 2010.
16
   50501-02-IT, U.S. Department of Agriculture, Office of the Chief Information Officer, Fiscal Year 2010 Federal Information Security
Management Act, Nov. 2010.

                                                                      10
half the cost, properly appraising the land beforehand is critical to ensuring that the agency pays its fair
share. Accordingly, our audit is focusing on NRCS’ oversight of easement appraisals in addition to
reviewing the agency’s controls to ensure that participants are eligible for the program and that the land
is properly monitored.

OIG’s FY 2012 Budget Request

We appreciate this Subcommittee’s continuing interest in using the results of OIG audits and
investigations to identify needed improvements in USDA programs. We also share your goal of
preventing improper payments of any kind and saving taxpayer dollars by improving USDA program
effectiveness and efficiency. So that we may continue to provide this type of work to the
Subcommittee and to USDA decisionmakers, we are asking today for your support of our
FY 2012 Budget Request.

Over the last 5 years (with total appropriations of approximately $413 million), OIG audits made
1,441 recommendations for needed program improvements, and $946 million in recommendations to
question costs or to put funds to better use. OIG investigations resulted in 2,610 successful
convictions, and $489 million in court-ordered fines, penalties, and restitutions.

The President’s $90.7 million budget request for OIG is conservatively set to support our current level
of effort, with three relatively low dollar but high impact enhancements to our capabilities.

    ·   $800,000 to support the costs involved in conducting audits that can statistically project the full
        dollar value of improper payments in programs under review. OIG’s recent Recovery Act audit
        of Rural Development’s SFH Guaranteed Loan Program—with a projected $4 billion in loans
        made to potentially ineligible borrowers—is a prime example of the benefit of statistical
        analysis. Because of the additional Recovery Act oversight funding, OIG was able to pay the
        additional staff hours and fieldwork required to use statistical sampling while evaluating this
        program. The requested funds will enable OIG to perform similar statistical audit work to
        identify the extent of improper payments in other USDA programs, such as SNAP, crop
        insurance indemnities, Rural Development loans, and payments resulting from the
        Department’s agreement to settle the Pigford discrimination lawsuit, which together total about
        $82 billion in annual expenditures.




                                                     11
    ·   $613,000 to provide oversight of USDA’s multi-billion dollar international programs. Due to
        limited resources, OIG has not been able to perform significant oversight of USDA
        international programs for several years. We are seeking $613,000 to cover the increased staff
        hours and travel costs necessary to audit and investigate these programs, which continue to
        grow in funding and strategic importance. The programs we are considering for review include
        the Department’s Food for Peace Program ($2.2 billion in FY 2010) and its Export Credit
        Guarantee Program ($3.1 billion in FY 2010). OIG is also required to provide oversight of
        approximately $100 million that the U.S. Agency for International Development has transferred
        to USDA over the past few years in support of reconstructing and strengthening agricultural
        and rural infrastructures in foreign countries.

    ·   $162,000 to support investigator training requirements, including Federal law enforcement
        training for new hires (OIG has experienced significant turnover due to investigators who have
        retired), training for peer counselors for OIG’s new Critical Incident Stress Management
        Program, and continuing legal training for special agents.

The President’s Budget Request for OIG also includes $455,000 for the Council of the Inspectors
General on Integrity and Efficiency (CIGIE), a council of Federal IGs established by the Inspector
General Reform Act of 2008. CIGIE’s mandated missions are to address integrity, economy, and
effectiveness issues that transcend individual Government agencies, and to increase the professionalism
and effectiveness of the IG workforce. The President’s Request proposes to fund CIGIE by adding
$455,000 to the budget requests of the 15 largest OIGs (including USDA OIG), which will then
transfer the funds to the council. As CIGIE’s first elected chair, I ask for the Subcommittee’s positive
consideration of this portion of our request. CIGIE has already proven particularly useful in providing
cost-effective professional training for OIG staff Governmentwide; enhancing cross-agency
effectiveness through identifying best practices; and improving program integrity, efficiency, and cost-
effectiveness throughout the Federal Government.

We would be happy to provide the Subcommittee with any additional information the Members and
staff find useful in considering our FY 2012 budget request.

This concludes my testimony. Thank you again for inviting me to testify before the Subcommittee.
We would be pleased to address any questions you may have.



                                                    12
